No.

20-7245 .ORIGINAL

IN THE SUPREME COURT OF THE UNITED STATES,

FILED
APR 2 2 2020

■OFFICE OF THF CLERK
SUPREME COURT. U.S.

Jeremy Kerr - PETITIONER
VS

State of Ohio - RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI

Jeremy Kerr 686-150
North Central Correctional
PO Box 1812
Marion, OH 43301

-1-

QUESTIONS PRESENTED FOR REVIEW
Does a State Court violate an individual's right to procedural
due process under the 14th Amendment to the United States
Constitution, when it issues an Order that affects a substantial
right, two minutes after the movant files the request?

Does a States Court violate an individual's right to procedural
due process under the 14th Amendment to the United States
Constitution, when it orders the appointment of receiver
despite any evidence that the individual received notice of
the proceeding or an opportunity to present any objections.
Does a State Court violate an individual's right to procedural
due process under the 14th Amendment to the United States
Constitution, when it orders a receiver to take all personal
property, including all cash and cash equivalents, furniture,
equipment, computer, and all general intangibles?

-®2-

j

TABLE OF CONTENTS
A.

Cover Page

page

1

Questions Presented for Review

page

2

Table of Contents

page

3

Index of Appendicies

page

3

Table of Authorities

page

4

List of All Parties .

page

5

List of All Proceedings

page

6

Statement of the Basis of Jurisdiction

page

7

Constitutional and Statutory Provisions Involved

page

7

Statement of the Case

page

8

Request for Granting the Writ .

page 18

INDEX OF APPENDICES
Appendix A

Decision of the Ohio Supreme Court [case no. 2019-

Appendix B

Decision of the Ohio Supreme Court

Appendix C

Motion for Charging Order

Appendix D

Charging Order

Appendix E

Order Appointing Receiver

Appendix F

Nunc Pro Tunc Charging Order

Appendix G

Amended Orders to Receiver

Appendix H

Judgment Entry of^the^Ohio Court of Appeals

Appendix I

Judgment Entry of the Ohio Court of Appeals

-3-

TABLE OF AUTHORITIES

CASES:
Arnett v Kennedy, 416 US 134

14, 16

Boddi v Connecticut, 401 US 371

14, 16

424 US 319

14, 16

Mathews v Eldridge,

Castle Apartments v Allgood, 539 NE 2d 1154

10

Ohio Valley Radiology v Ohio Valley Hosp.
28 Ohio St 3d 118

10

CONSTITUTIONAL AUTHORITIES:
14th Amendment to the United States Constitution
10, 14, 15, 16
RULES:
7, 18

Supreme Court Rule 10
Ohio Civil Rule 60

17

Ohio Supreme Court Rule 16.07

17

STATUTES:
Ohio Revised Code 1705.18

.8, 11, 13, 17

Ohio Revised Code 1705.19

. 8, 11

13, 17

Ohio Revised Code 2329.66

9, 13

Ohio Revised Code 2735.01

9, 12, 17
7, 11

28 U.S.C. 1257
OTHER AUTHORITIES:
The Consumer Credit Protection Act

-4-

. 9, 13, 15, 16

LIST OF ALL PARTIES
All parties do not appear in the caption of the case on the
cover page.

A list of all parties to the proceeding in the court

whose judgments are the subject of this petition are as follows:
Governor Mike DeWine
Vern Riffe Center
77 S. High St., 30th Floor
Columbus, OH 43215
Attorney General Dave Yost
James A. Rhodes State Office Tower
30 E. Broad St., 14th Floor
Columbus, OH 43215
Third Appellate District Court
Court of Appeals Building
204 N. Main St
Lima, OH 45801-4457
Judge John Collier
660 N. Perry St
Napoleon, OH 43545
Supreme Court of Ohio
65 S. Front St
Columbus, OH. 4321 5

. -5-

LIST OF ALL PROCEEDINGS
In the Court of Common
Case No. 2011-CV-0001
Kerr Buildings, Inc. v
Dates of Judgments:
May 29, 2013
August 20, 2013
April *17,'• 201 4-'
November 14, 2017
January 25, 2018
April 16, 2018
June 21, 2018
August 6, 2018

Pleas of Henry County, Ohio
Scott Bishop v Jeremy Kerr
Charging Order
Order Appointing Receiver
Denial of 1st Motion to Vacate
Denial of 2nd Motion to Vacate
Nunc Pro Tunc Charging Order
Amended Orders to Receiver
Denial of 3rd Motion to Vacate
Denial of 4th Motion to Vacate
Denial of Motion to Modify Orders

In the Ohio Court of Appeals, Third Appellate District
Case No: 7-19-05
State ex rel Jeremy Kerr v Judge John Collier
Date of Judgment, June 21, 2019
Case No. 7-19-06
Kerr Buildings, Inc v Scott Bishop v Jeremy Kerr
Date of Judgment: September 3, 2018

In the Supreme Court of Ohio
Case No. 2019-0888
State ex rel Jeremy Kerr v Judge John Collier
Date of Judgment: February 13, 2020
Case No. 2019-1362
Kerr Buildings, Inc. v Scott Bishop v Jeremy Kerr
Date of Judgment: February 4, 2020

-6-

STATEMENT OF THE BASIS FOR JURISDICTION
Petitioner respectfully prays that a writ of certiorari
issue to review the merits of the following Opinions of
the Ohio Supreme Court, which appears at Appendix A and B to
this petition:
State ex rel Jeremy Kerr vs Judge John Collier
Decided on February 13, 2020
Ohio Supreme Court Case No. 2019-0888
2020-Ohio-457
Kerr Buildings, Inc v Scott Bishop v Jeremy Kerr
Decided on February 4, 2020
Ohio Supreme Court Case No. 2019-1362
2020-OhioThe jurisdiction of this Court is invoked under 28 U.S.C.
1257(a).

Further, Supreme Court Rule 10(c) provides that review

on a writ of certiorari will be granted only for complelling
reasons, such as, when a state court has decided an important
federal question in a way that conflicts with relevant decisions
of this Court. Petitioner is seeking review^^ule 12.4.
The facts of this case satifies Supreme Court Rule 10(c).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution Amendment Fourteen
All persons born or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United States
and of the State wherein they reside, No State shall make or
enforce any law which shall abridge the privileges or immunities
of citizens of the United States; nor shall any State deprive a
person of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the law.

-7-

STATEMENT OF THE CASE
Initial Trial Court Proceeding
In 2011, Kerr Buildings, Inc., of which Petitioner Jeremy
Kerr ("Kerr") was the president, sued Scott Bishop ("Bishop")
regarding a contract dispute in the Common Pleas Court of Henry
County, Ohio, with Judge John Collier ("Judge Collier") presiding.
On October 16, 2012, Judge Collier entered a monetary judgment
of almost $80,000 against Kerr Buildings, Inc. and Kerr.
On May 23, 2013, Bishop conducted a Debtor’s Exam in which he
discovered (1) that niether Kerr Buildings, Inc. nor Kerr had any
assets; and, (2) that Kerr has "membership interests" in two
limited liability companies, which owns several pieces of real
estate.r[Beaver Creek Development Co., LLC and Beaver Creek
Properties, LLC].
Charging Order
On May 29, 2013, at 2:42 pm. Bishop filed his Motion for
Charging Order under O.R.C. 1705.19 against Kerr's "membership
interest" in the two limited liability companies.

In the motion,

Bishop certified that he served a copy onto Kerr by regular and
certified US Mail on the same day, May 29, 2019,

[It is general

knowledge that regular and/or certified US Mail does not become
complete the same day]. See Appendix C.
However, also on May 29, 2013, at 2:44pm, [two minutes after
Bishop filed his motion], Judge Collier entered a Charging Order
against kerr's "membership interest" in the limitedtliability
companies.

The Charging Order also charged several properties :

that are solely owned by Beaver Creek Development Co., LLC.which
is violative of O.R.C. 1 705.1 9 and O.R.C. 1705.18. [See Appendix's}],

-8--

A review of the time-stamps on the Motion for Charging Order
[Appendix C] and Judge Collier's CHarging Order [Appendix D]
establishes that Kerr did not have a reasonable opportunity to
present his objections to the CHarging Order.
Further, a review of the Certification of Service in the
Motion for Charging Order [Appendix C] establishes that Kerr
never had knowledge of the Charging Order Proceeding.

[ It is

common knowledge that service by US Mail is not complete the same
day].

Clearly, Judge Collier entered his CHarging Order before

service of process could have been completed.
There is no question, Kerr's right to procedural due process
was violated.
Order Appointing Receiver
On June 19, 2013, Bishop filed his Motion for the Appointment
of Receiver under O.R.C. 2735.01(C), to carry the judgment into
effect.

On August 20, 2013, Judge Collier entered an Order

Appointing Receiver over Kerr, Kerr Buildings, Inc., and the
limited liability companies, who are not parties to the action.
The Order consists of twelve pages of "additional orders" outside
of the scope of the monetary judgment. [Appendix E].
The Order Appointing Receiver also contains an order to the
Receiver to take all assets, equity and income of Kerr, including
all cash and cash equivilent, furniture, equipment, computers,
and all general intangibles.

Such order is a clear violation of

O.R.C. 2329.66 and The Consumer Credtit Protection Act.
A review of the Order Appointing Receiver [Appendix E]
demonstrates this clear and obvious violation.

-9^-

Motion to Vacate Order Appointing Receiver
On March 10, 2014, Kerr filed a Motion to Set Aside the
Appointment of Receiver for Lack of Service.

Kerr attached to the

motion an Affidavit stating that due to the nature of his ''
incarceration, service at his last known address [his home address]
simply does not comport with procedural due process.
Bishop did not challenge Kerr's Affidavit or present any
evidence proving that Kerr had received Bishop's Motion for the
Appointment of Receiver.

However, Judge Collier denied Kerr's

motion by finding that Kerr did not satisfy the prerequisites of
Ohio Civil.Rule 60(B).
Under Ohio Law, when service of notice is incomplete, the
judgment is void ab initio and is not subject to the prerquisites
of Ohio Civil Rule 60(B).

See Castle Apartments v Allgood, 539

NE 2d 1154; Ohio Valley Radiology Ass'n v Ohio Valley Hosp.
Ass'n, 28 Ohio St 3d 118. In fact, this legal concept is very
well established law.
First Direct Appeal
Kerr filed a direct appeal to the Third District Court of
Appeals of Ohio [case no. 7-14-07] in which he argued that because
service of notice was incomplete, the Order Appointing Receiver
violates the 14th Amendment to the United States Constitution
rendering the Order null and void, thus, not subject to the
prerequisites of Ohio Civil Rule 60(B).
The Appellate Court affirmed Judge Collier's application of
Ohio Civil Rule 60(B) by finding that Kerr had a duty to inform
the clerk his new address.

In support, the Appellate Court cited

-10-

three Ohio cases where during an on-going proceeding in which the
complaining parties had made an appearance, the clers sent notices
to their last known addresses.

[These cases had no relance to the

facts of Kerr's appeal].
Second Motion to Vacate
In late 2017, Kerr filed a challenge to Judge Collier's
authority to charge the properties of Beaver Creek Develpment Co.,
LLC., as well as, his authority to appoint a receiver over the
limited liability company.

In the motion, Kerr argued that because

Judge Collier lacks legal authority to exercise such judicial
power, according to Ohio Jurisprudence and American Jurisprudence,
theOrdersin their entirety, are null and void.

?

In his Judgment Entry, Judge Collier refrained Kerr's argument
as Kerr is attempting to vacate the Orders as they imply to
Beaver Creek Development Co., LLC.

He then deniejdt* the motion

based on the fact that because Kerr is not an attorney, he cannot
present a motion on behalf of a limited=liability company.
Kerr did not appeal because Bishop immediatly filed a motion
to correct Judge Collier's error.
Nunc Pro Tunc Charging Order
and
Amended Order to Receiver
Immediatly after Judge Collier denied Kerr's second motion
to vacate, Bishop filed a Motion for Nunc Pro Tunc Charging Order
in which Bishop requested a Nunc Pro Tunc CHarging Order that
precisely follows Ohio Law, specifically R.C. 1705.19, by deleting
the permissible order to sell the properties.

-1T-

On Januray 25, 2018, Judge Collier granted Bishop's motion
and entered his Nunc Pro Tunc Charging Order [Appendix F].

On

April 16, 2018, Judge Collier entered his Amended Order to
Receiver [Appendix G]-which contained all of the same powers
granted to the Receiver in the original Order Appointing Receiver,
except the powers over the * limited liability companies are absent.
A review of the Nunc Pro Tunc Charging Order [Appendix F] and
the Amended Order to Receiver [Appendix G] demonstrates that the
hew Charging Order was absent any language charging the properties
held by Beaver CReek, and the new Order to Receiver was also absent
of any language granting the Receiver any powers over the limited
liability companies.
However, the Receiver refused to return the limited liability
companies back to Kerr.

[This is because without the limited

liability companies, the Receivership would become insolvent[.
Judge Collier has refused to do anything about this issue.
Third Motion to Vacate Appointment of Receiver
Because Judge Collier refused to order the Receiver to return
the limited liability companies to Kerr, Kerr filed his third
Motion to Vacate Order Appointing Receiver on June 21, 2018.
Kerr argued that the twelve pages of "additional powers"
granted to the Receiver are outside of the scope of the monetary
judgment and violates O.R.C. 2735.01(C).

Judge Collier applied

the Doctrine of Res Judicata and denied the motion.
Kerr filed a Direct Appeal to the Third Appellate District of
Ohio [case no. 7-18-26] who sua sponte dismissed the appeal by
finding Kerr's motion to vacate

a reconsideration of his first -

-12-

and second motions to vacate.

[Each motion was based on different

grounds and different facts, the Court of Appeals is mistaken].
Fourth Motion to Vacate Appointment of Receiver
Kerr filed a fourt Motion to Vacate in which he argued that
Judge Collier has committed several unauthorized acts of judicial
power.

One of those acts was his order to the receiver to take

all assets, equity•and income of Kerr, including all cash and
cash equivalents, furniture, equipment, computers, and all
general intangibles., Kerr argued that such order violates
O.R.C. 2329.66 and The Consumer Credit Protection Act.
Judge Collier applied res judicata and denied the motion.
Kerr then appealed to the Third Appellate District of Ohio, who
sua sponte dismissed the appeal by finding Kerr's motion a
reconsideration

his first, second, and third motions.

[Case no. 7-18-28].
Motion to Modify Orders
Because the Receiver still maintained control of the limited
liability companies; Judge Collier refused to do anything; and,
the Appellate Court refused to hold Judge Collier accountable;
Kerr sought another remedy for relief.
On March 18, 2019, Kerr filed his Motion to Modify Charging
Order and Orders to Receiver in which Kerr asked

Judge Collier

for an order revising the Nunc Pro Tunc Charging Order [which
still did not wholly comply with O.R.C. 1705.19] and an order
i,

limiting the Receiver's authority over the limited liability
companies.

-13-

Again, Judge Collier applied Ohio Civil Rule 60(B) and
denied the motion.
Direct Appeal
Kerr filed a direct appeal to the Third Appellate District
of Ohio [case no. 7-19-06] in which he argued the application of
the prerequisites of Ohio Civil Rule 60(B) are prohibited in a
challenge to a void judgment.
Kerr also argued, for the first time, that Judge Collier
lacked Constitutional authority under the 14th Amendment to the
United States Constitution to issue a CHarging Order against Kerr
before it could be reasonably calculated that Kerr had an j
opportunity to gain knowledge of the Charging Order proceeding
and an opportunity to present his objections.

In support, Kerr

relied on this Court's Decisions and stated the following:
The United States Constitution gaurantees procedural
due process. Although the concept is flexible at :
it's core, procedural due process under the United
States Constitution requires, at minimum, an
opportunity to be heard when the State seeks to
infringe a protected right. Boddi v Connecticut,
401 US 371. Further; the opportunity to be heard
must occur at a meaningful time and in a meaningful
manner. Mathews v Eldridge, 424 US 319. The right
to procedural due process is confered not by
legislative grace, but by constitutional gaurantee.
Thus, while the legislature may elect not to confer
a particular property right, it may not constituionally
authorize the deprivation of a property interest,
once confered without appropriate procedural
safeguards. Arnett v Kennedy, 416 US 134,
The Appellate Court issued it's Judgment Entry on September
3, 2019.

[Appendix'^,].

In it's Entry, the Appellate Court

affirned Judge Collier's application of Ohio Civil Rule 60(B)
and also found that Kerr should have raised his procedural due

-1 4-

process claim in his first appeal.

[Basically, the Appellate

Court applied res judicata].
Discretional Appeal
Kerr filed a Discretional Appeal in the Ohio Supreme Court,
[case no. 2019-1362].

Kerr reargued that his right to procedural

due process is gauranteed under the ,14th Amendment to the United
States Constitution and that a violation of that sacred right can
never be subject to the doctrine of res judicata.
Kerr also argued that Judge Collier's order to the Receiver
violates the 34th Amendment to the United States Constitution
because it exceeds the limits prescribed in The* Consumer Credit
Act.
On February 4, 2020, the Ohio Supreme Court declined
jurisdiction.

[Appendix A],

This Decision is one of the subjects

of this Petition for Writ of Certiorari.
Writ of Prohibition
In the Third Appellate District of Ohio [case no. 7-19-05],
Kerr filed a Complaint for Writ of Prohibition against Judge
Collier, in which Kerr alleged that Judge Collier lacked legal
authority, under Ohio Law and Federal Law, to issue several
orders.
Under Count One, Kerr alleged facts and law, in support of
his claim, that Judge Collier violated Kerr's right to procedural
due process, which is gauranteed by the 14th Amendment to the
United States Constitution, by issueing a Charging Order against
Kerr before it could be reasonably calculated that Kerr had an
opportunity to gain knowledge of the CHarging Order proceeding.
-15-

and an opportunity to appear and raise his objection.
support, Kerr cited Decisions from this Court.

In

Boddi v

Connecticut, 401 US 371; Mathews v Eldridge, 424 US 319;
Arnett v Kennedy, 416 US 134.
Under Count Two, Kerr alleged facts and law, in support of
his claim, that Judge Collier violated Kerr's right to procedural
due process, which is gauranteed by the 14th Amendment to the
United States Constitution, by issueing an Order Appointing
Receiver in the absence of any proof that Kerr received notice
of the proceeding.
Under Count Six, Kerr alleged facts and law, in support of
his claim, that Judge Collier lacked authority under The
Consumer Credit Protection Act to issue an order to the Receiver
to take all assets, equity, and income of Kerr, including all
cash and cash equivalents, furniture, equipment, computers, and
all general intangibles.
Judge Collier filed a Motion to Dismiss for failure to state
a claim under Ohio Civil Rule 12(B)(6).
On June 21, 2019, the Appelate Court granted the motion.
[Appendix

].

Kerr then filed a direct appeal to the Ohio Supreme Court
[case no. 2019-0888],

Kerr reargued that the 14th Amendment to

the United States Constitution gaurantees procedural due process
before a state divests a property interest.

Kerr also argued that

The Consumer Credit Protection Act prohibits Judge Collier from
issueing an order to the Receiver to take all assets, equity, and
income of Kerr, including all cash and cash equivelents, furniture.

-16-

equipment, computers, and all general intangibles.
Judge Collier did not file a Merir Brief.

Thus;,:. according

to Ohio Supreme Court Rule 16.07(B), Kerr was entitled to an
order inhis favor as long as his merits "reasonably appears to
sustain reversal."
On February 13, 2020, the Ohio Supreme Court issued it's
Judgment Entry and Opinion [Appendix £ ] which found that
Judge Coller had jurisdiction to issue the CHarging Order under
O.R.C. 1705.19, and jurisdiction to issue the Order Appointing
Receiver under O.R.C. 2735.01.
This Decision is one of the subjects of this Petition for
Writ of Certiorari.-

->7-

REQUEST

FOR GRANTING THE WRIT

Supreme Court Rule 10 prescribes that a petition for writ
of certiorari will not be granted only for compelling reasons,
such as, when a state court has decided an important question of
federal law that has not been, but should be, settled by this
Court, or has decided an important federal question in a way that
conflicts with relevant decisions of this Court.
The facts of this case, and the documents attached in the
Appendix, on it's face, demonstrates a clear violation of Kerr's
right to procedural due process, and when presented this question
of federal law, each level of the Ohio Courts settled the issue
in a way that conflicts with this Court's decisions.
WHEREFORE, Petitioner requests this Court to grant his
Petition for Writ of Certiorari.
Respectfully submitted,

Jeremy Kerr~^^S

6-1 50
North Central Correctional
PO Box 1812
Marion, OH 43301

-18-

